                  ((




 Department of Health and Human Services
                       OFFICE
    INSPECTOR GENERAL





USING RELATIVES FOR FOSTER CARE





          s9VD.




                         Richard P. Kusserow
                         INSPECTOR GENERAL
                             OEI- 06- 90- 02390
         ltflaa
                       , "




                  EXECUTIVE SUMMARY

 PURSE
This report concerns foster home care provided by the relatives of those children in the
legal custody of State child welfare agencies. It identifies issues in State regulations and
official practices concerning the use , certfication , and support of extended family
members within the foster care systems of the fifty States and the Distrct of Columbia.
The companion report State Practices in Using Relatives for Foster Care " describes
policy and practices on a state-by-state basis.


METHODOWGY

We used a four-step process for data collection:

               we explored the many recently initiated reseach and policy development
               efforts in this area;

              we interviewed foster care administrators in the fifty States and the Distrct
              of Columbia concerning policies and practices in using relative foster care
              providers;
              we reviewed relevant State policy documents; and
              we interviewed administrators of speial programs for relative foster-care
              providers concerning the features of their programs.


FIINGS
   Few States collect detailed infonnaton about foster-care placements with relaves.

Last yea , almost 80 000 children received foster care from relatives in the 29 States with
the capabilty to identify such placements.

   Over the last five years, States have made increased use of relaves as foster parents.

The growing success of State policies that encourage maintenance of extended family ties
litigation , and the shortge of foster homes are key reasons for the increased use of
relative foster homes.
    Staes frequently lack fonnal policies for      licensing or approving relave foster

 homes.


 Relative foster parents are generally held to lesser stadards unless they also care for non-
 related foster children.

    Policies concerning the payment of foster-care maintenance vary widely between and
 within Staes.



    There is evidence that children placed with relaves       remain the   legal responsibility of
 the State   for longer than children in other alternatve care arrngements.

RECOMMA TIONS
The States, universities, and family and child welfare organizations should:

        Conduct further reseach concerning the use of relative caregivers within the child
        welfare system.



The A dministration for Children and Familes (ACF) should:

        Encourage States to extend existing foster home stadards to relative foster homes
        or to develop reasonable and consistent stadards for using and evaluating relative
        foster care homes that are not licensed or approved.

        Encourage States to develop consistent , straghtforward policies for informing
        licensed or approved relatives of their eligibilty for financial reimbursement.

        Assist States to accomplish the two prior recommendations      through reseach
        consultation and technical assistace.

        Study the potential costs and benefits of providing subsidies to relatives who
        assume guardianship for special-nees children in their care.


DEPARTMNTAL COMMNTS

We recived comments from the Administration for Children and Families (AFDC), the
Assistat Secreta for Planning and Evaluation (ASPE), and the Assistat Secreta for
Management and Budget (ASMB). Respondents were generally supportve of our
findings , but the ACF and the ASMB expressed doubts about the ACF' s authority to
intervene in the States '   application of stadards or provision of foster care maintenance
payments when foster care placements are not supported through Federal funds. We have
amended the recommendations to meet these concerns by calling on ACF to " encourage
            , "




rather than " require " appropriate State actions. We have made other changes in the
recommendations to make the intent of the recommendations cleaer. Please refer to
Appendix C DIG Response to Deparmenta Comments " and to Appendix D for the full
text of all deparmenta comments.

We are appreciative of comments received from staff of the Child Welfare Legue of
America and the American Public Welfare Association.
             . . . . . . . ..
                           . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. ............................. .. ................ . ....
           . . . . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. ... ... ... ... ... ... ... ... ... ... ... ... ... ... ..                . ..
                                                                                                                                . ... ........ .. .. .. .. ...




                       TABLE OF CONTENTS


EXECUT SUMARY


INTODUCTION. . . . . . .

FININGS

     Lack of Data

     Increased use of relatives as foster parents

     Lack of formal policies for licensing or approving. 


     Varations in policies concerning the payment of foster-care maintenance. 


     Extended stays in foster care


RECOMMENDATIONS


ENDNOTE


APPENDICES

     A: AFDC and Foster Care Maintenance Rates.                                               . . . . . . . . . . . . . . . . .. A­
     B: Bibliography
  . . . . . . . . . . . . . . . .                                        . . . . . . . . . . . . . . . . . .. B­

     C: OIG Response to Deparment Comments                                              . . . . . . . . . . . . . . . . . . .. C­
     D: Full Texts of Deparment Comments . . . . . . . . . . . . . . . . . . . . .. D­
                                                , "




                           INTRODUCTION

PURSE
The purpse of the study is to provide information on how States use and support foster
homes provided by relatives. This report concerns foster home care provided by the
relatives of those children in the legal custody of State child welfare agencies. It identifies
issues in State regulations and official practices concerning the use , certfication , and
support of extended family members within the foster-care systems of the fifty States and
the Distrct of Columbia. A companion report State Practices in Using Relatives for
Foster Care " describes how each State uses , reviews and supports relative foster homes.


BACKGROUN

  S. Census projections in 1985 indicated that close to 3. 5   milion children were being
rased in extended family households. About 1. 8 millon of these children were being
rased in households in which  their parents were not present. The avenues by which
these children come to live with relatives var along a continuum from informal
intrafamily arangements to formal arangements between public agencies and the
children s relatives; For examples:

               Children may be cared for in a relative s home as an arangement between
               the parents and the relative. The parent remains in the home some or all of
               the time with the child.

               Children may be left in the care of the relative either as a result of a
               mutually agree upon plan or because the parents have temporarly or
              permanently abandoned them.



              A relative may assume the care of children at the request of outside pares
               (frequently the State child protection authorities or heath and welfare
              agencies providing treatment to the child) in an effort to prevent the nee
              for placing a child in foster care.

              Children may come into the legal custody of State child welfare agencies
              because they require care and protection. Through those agencies ' efforts
              the children may be placed in foster care with the relative.

The last legal and physical arangement is the focus of this report. These children
although living with family members , are the direct responsibility of the State child
welfare agency and generally are cared for in programs underwritten with Federal child
welfare funds. While legally and administratively these children are par of the general
 foster-cae population ,the family relationships involved in their placements result in
 unique policy and practice issues.

 The practice of placing children for whom the State is legally responsible with extended
 family members is not a new one. Child welfare agencies have long used " specific
 foster homes drawn from familes ' informal support networks to care for children in their
 legal custody. 2 In such placements , adults with biological or emotional ties to children
 were approved to care for only those children. Because they cared only for these
 parcular children , stadards for approving the home were less formal , if not less
 stringent , and services and financial support were based on individual case assessments
 rather than entitlements through policy.

Clea policy and anecdota evidence indicates , however , such placements were considered
as a last resort in many State child welfare systems and were actively discouraged in
others. Certnly the use of " specific " foster homes was considered less within the limits
of agency policies than more traditional placements with foster parents having no previous
relationship to the child. In some States , for example , children placed with relatives
whatever their legal status vis-a-vis the State child welfare agency, were frequently
considered the responsibility of the Assistace                       Payments   staff who often supervised Aid to
Familes with Dependent Children    (AFDC) payments to the relatives. The role of these
placements in the child welfare system was rarely clea in either policy or practice. Their
limited numbers allowed public policy makers to avoid the question on a systemic level.

Three events in the late 1970s               and ealy 1980s pushed the            States to begin rethinking these
policies:

                  enactment of the Indian Child Welfare Act of 1978;

                  enactment of the Adoption Assistace and Child Welfare                        Act of 1980; and

                  the 1979 Supreme Court decision in 
                    Miler vs. Youaldm.
The Indian Child Welfare Act (P. L.                      95- 608)   called for preservation of the ethnic heritage
of Native American children in foster care through a varety of protections , among them
extended family placements. The Adoption Assistace and Child Welfare Act (P. L. 96­
272) required placement of children who were the legal responsibility of the State in the
least restrctive setting and in close proximity to their families. State policy makers have
interpreted the " least restrctive " requirements as preferrng placements with relatives.

Both pieces of legislation spurred States to adopt policies which used relatives as the first
level of alternative care to insure continuity for children in foster care. In some States
the policy language adopted subsequent to the Federal legislation implies that State child
welfare agencies should look to relative care as an alternative to traditional foster care.
Suddenly, relatives were given a priority role in a foster-care system in which they
previously played only an incidenta par.



The third event     Miler      vs. Youaldm           (440 US 125 (1979)) began a process of change in the
treatment of relative foster-care providers. The Court ruled that , if relative foster home
argements meet the Federal eligibility stadards for Federal funding, States could not
deny Federally- funded benefits based solely upon the fact that the caregiver was a relative.

Foster parents who care for children in the legal custody of the State ordinarly receive
foster-cae maintenance payments on behalf of those children. States or local jurisdictions
provide the base monies , but a significant par of the funds for these payments are derived
from Federal Social Security Title IV-E and IV-  B funds. Prior to  Miler vs. Youaldm
many States routinely denied all foster-care maintenance payments , regardless of funding
source , to children placed with relatives even though they met Federal criteria (Le.
children who were adjudicated dependent , placed in a licensed or approved home , and
AFDC-eligible). The Supreme Court ruled there was no basis for denying Social Security
Act funds to eligible children placed with relatives.

This decision changed the financial arangements between large numbers of extended
family foster parents and State child welfare agencies by making many relative foster-care
providers eligible for Federally-supported , foster-care maintenance payments. By drawing
relatives into the formal subsidy arangement to reimburse paraprofessional foster parents
it opened placements with relatives to increased scrutiny and formalized the roles of
relatives providing foster care in many States.

Over the last five yeas , relative foster care has come under increasing scrutiny for several
reasons:

              lawsuits in several States with large foster-cae  populations (e. , New
              York , Ilinois , and pending litigation in Oregon and California) have drawn
              attention to financial support and classification of relative foster parents;

              a rapid rise in State foster-care caseloads, a decrease in the number of
              traditional foster homes available , and the increasing severity of the
              problems causing the nee for substitute care have resulted in reconsidering
              many resources for placement of children ; and

              the trend toward recruiting and supporting foster parents as trained , para­
              professional members of child and family treatment teams highlights the
              differences between relative caregivers and individuals with no previous
              relationship to foster children.

Organizations such as the Child Welfare Legue of America , the American Public Welfare
Association , and the American Bar Association Center for Children and the Law , as well
as Deparmenta staff and members of Congress , recently have begun to raise concerns
about the nee for policy guidance in makng such foster-care placements. Child welfare
administrators and public advocacy groups raise many issues concerning relative foster
care as a practice. Undergirding many of these concerns , and most of the findings of this
report , is the central question of how to define the role of extended family members in the
formal child welfare system. Questions       and issues arse as public agencies ,   charged with
cang and planning for foster children , struggle to classify care provided by a relative as
either foster care or family preservation.

While most practitioners now agree that placing children within their extended family
networks offers many benefits , the practice raises many public policy issues. A recent
report from the National Commission on Family Foster Care 4 convened by the Child
Welfare Legue of America and the National Foster Parent Association , presented the
major issues:

               Child Protection and Nurturing- Policies must simultaeously protect
               children in foster care while allowing some leeway in recognition of the
               overrding benefits of placing children with extended family members.

               Permanency Planning- Permanency       planning when children are placed
               with relatives must be defined and then made par of the casework process.

               Monitoring and Supervision-       State child welfare agencies must insure the
               safety and well- being of children placed with relatives without unduly
               interfering in the reconstituted family.



               Equity and Fiscal Implications-       Relative foster care presents public
               policy makers with three concerns to balance in determining the level of
               financial support available to relative foster caregivers: 1) equity and
               adequacy for the relatives; 2) the implications of this equitable and adequate
               level of reimbursement for financial support to the families of origin; and
               3) the effect on public budgets of the levels of support.


METHODOLOGY

We used a four-step process for data collection. In the first level of the investigation , we
explored the many recently initiated reseach and policy development efforts in this area.
This review of works in progress provided an overview of emerging issues about relative
foster-care placements.

Second , in order to describe States ' policies and legal frameworks for using relative
foster-cae parents and to determine current practice , we conducted telephone interviews
with public foster-care officials in each of the fifty States and the District of Columbia
(hereafter referred to as a State).

Third, in these interviews, we requested copies of written materials that give in- depth
information on unique aspects of programs. Finally, we interviewed by telephone
individuals in severa States who were involved with public and private relative foster-care
programs identified by State administrators.
                                     FINDINGS

   Few States collect detailed infonnaton about foster-care placements with relaves.

Only 25 States could produce even a basic census for the last five yeas of children in
foster care with relatives. Four additional States began compilng data concerning relative
placements during the State s last fiscal yea in response to rising public attention to these
placements. Four of the 29 State administrators expressed reservations about the accuracy
of the numbers supplied through their agencies ' information systems.

The lack of complete , reliable information reflects the current state of child welfare data
collection systems in the States. Some of the lack of annual census information , and most
of the inabilty to provide descriptive or impact data concerning placements with relatives
are due to inadequate and outmoded collection and processing systems that affect all
children in foster care.

However , there are also tellng programmatic reasons why information about these
placements is not available. Most have to do with the way the individual States have
trditionally defined foster care with relatives. If States   consider relatives ' homes as par
of the genera population of foster homes , children placed with related foster parents are
counted within the genera foster-care population and cannot be distinguished from other
foster children. They frequently have no special status either in policy or within the
information management systems of those States. At the other extreme are those States
which consider some placements of children in foster homes with relatives as a form of
family preservation. The children are considered only loosely par of the foster-cae
system. Unless included as par of a special data collection effort , children in these States
do not appe    in State   data systems.


   Last year, almost 80 000 children received foster care      from relaves in the   29   States
with the capabilit to identify such placements.

These 80   00 children represented over 31 percent of the tota number of foster children
in the legal custody of these States. The proporton of children shows wide varation
between the States , however. States tend to follow their own consistent patterns in the
degree to which children are placed with extended family members.

New York , Ilinois and California account for nealy   two- thirds (65 percent) of the
number of children placed with relatives. Within these States , most of the placements
with relatives are in New York City, Cook County (Chicago), and Los Angeles and San
Francisco. If these three States are removed from the calculations of the tota proportion
of foster children who are provided foster care by relatives , the figure of 31 percent drops
to 18 percent. (See Table 1 on the next page.

      Over the last five years, States have made increased use of relaves as foster parents.

 As shown in Table 1 , for those 25 States with data on placements with relatives , the
 percentage of children cared for by relatives has grown from 18 to 31 percent over the
 last five yeas. Excluding New York (NY), Ilinois (IL) and California (CA), relative
 placements show a more gradual increase from 12 to 18 percent from 1986 to 1990.




The proporton of children placed with relatives has increased by more than 10 percent
over the last 5 yeas in five of the 25 reportng States (Arizona , California , Ilinois
Marland , and New York). As noted above , in three of these States (California , Ilinois
and New York), the bulk of such placements are in major urban centers. The perception
of enormous increases in the number of children placed with relatives appeas driven
largely by experiences in these three States.

Another three States have experienced more modest increases of between 5 to 9 percent.
The remaining 17 States have experienced increases of less than 5 percent or even very
slight decreases in the proportion of the States ' tota foster-care caseload placed with
relatives.

Administrtors in 22 of the 26 States that cannot provide historic data on relative foster
cae stated that staff reports indicated some growth or stabilty in the proporton of
relative caretaers. Administrators in two of these 26 States reported quite large increases
in the proporton of relative foster-care placements.

     The growing success of State policies that encourage maintenance of extended family
ties, litgaton , and the shonage of foster homes are key reasons for the increased use of
relave foster homes.


Most States with slight or moderate increases attributed the rise to the growing success of
State policies encouraging placements with extended family members. Most such policies
have been promulgated within the last decade as a response to the " least restrictive
setting " requirements of the Adoption Assistace and Child Welfare Act of    1980S   and
relative placement requirements in the Indian Child Welfare Act of 1978. Administrators
believed that staff and court personnel were becoming more sensitive to children s nee
for family supports , and therefore were more wiling to seach for and use relative
caegivers.

Litigation during the last decade has had a significant effect on the increases in the
proporton of children placed in relative homes who were classified as par of the foster-
care system in Ilinois and New York. To some extent , the increases in these States
reflect a change in the categories to which the placements are assigned. In several other
States , suits brought or threatened by relatives have resulted in official agency procedures
requiring comprehensive pre-placement seaches for relatives , which in turn have
faciltated additional foster-care placements with kin.


Since 1985, the Office of Human Development Services (OHDS), incorporated now into
the Administration for Children and Familes , has issued three policy clarfications
reminding States of their responsibility to insure children placed with relatives undergo
                                        6 Further
periodic permanency planning reviews.              , OHDS has demanded that States
include records of these children in the tota records available for Deparmenta audits of
agency caseloads. This pressure by OHDS to insure that children placed with relatives
are guartee permanency planning protections undoubtedly has resulted in
reclassification of some existing informal arangements with relatives as foster-care
placements.

While mentioned less frequently, administrators stated the increased use of relatives
parcularly in major urban areas , resulted from the shortge of foster family homes and
the inabilty of State agencies to find other homes for medically fragile and drug-addicted
children. A study conducted by the National Black Child Development Institute lends
support to this latter perception. In that study, relatives were considered as a resource
significantly more often in parenta drug abuse cases than in non- drug abuse cases.

   States frequently lack fonnal policies for licensing or approving relave foster
homes.

Deparmenta regulations for Federal Financial Parcipation (FFP) in State       foster-care
maintenance payments require States to license or approve homes providing 24- hour care
for children. Stadards for licensing homes do exist and are used by the States. The
Child Welfare Legue of America calls upon agencies to select foster families on the basis
of " careful study and evaluation " and offers stadards in eleven different areas for
scrutiny. 8 Evaluations of traditional foster family homes use detaled standards or
approval guidelines specified in State policies.

This is not always the case for relative foster homes. Only 20 States license or approve
                             all relative foster homes. (See Table 2 on the next page. ) In
as meeting licensing criteria 


27 States some relative homes are licensed or approved , but most are subject only to
review processes which mayor may not be specified      in policy.
When relative homes are licensed or approved , the evaluation is nominally based upon the
same policy stadards      specified for all other foster homes. These stadards are defined in
State policies ,   and administrators and staf are trained and held accountable for insuring
the stadards are met. As with    non-relative homes , the evaluation usually is conducted by
staff speializing in finding, assessing, and supporting foster family homes.

The evaluations conducted on relative homes not being certfied var greatly even within
the same State. Fifteen States have formal stadards for reviewing homes which canot
be licensed. These formal stadards may be identical to those applied to licensed homes
or may be basicay similar but have varous predefined exceptions or allow automatic
waivers in specific areas such as space requirements or age and marta status
requirements. The stadards and allowable exceptions are explicit in policy, however.
The remaining sixteen States , while usually requiring some assessment before placing
children in the homes of relatives , do not provide detaled criteria in policy for conducting
reviews. Evaluations may be as detaled as the licensing reviews conducted in the States
or be based upon protective services stadards , or be based on a single visit to the homes
or reports of such visits made by staff of other programs. Whether formal or unspecified
reviews of homes not preparng for licensing are raely conducted by State foster home
speialists.

   Relave foster parents are generally held to lesser standards unless they also care for
non-relaed foster children.

Home Studies Var Widely

Home studies for relative placements var widely in terms of their formality, contents and
strngency. Typicaly, prospective relative foster parents are held to lesser stadards.
Stadards for less formal review processes are frequently lower than those required for
licensing, and waivers are common even in the more stringent reviews. Administrators
reported that home studies sought to insure the basic heath and safety of children in the
cae of the agencies. Procedures for insuring that homes meet these minimal stadards
are not clea.



Licensing or certfication of foster homes is meat to insure the safety and suitabilty of
homes to accept children. If a family s home cannot meet minimum physical and
emotional stadards , by policy that home cannot be licensed and consequently cannot
assume the care of children for whom the State is legally responsible. In 30 States
however , children may be placed in all or some relative foster homes whether or not the
homes meet minimum certification stadards. If homes meet licensing criteria , these are
certified; if the home cannot meet licensing criteria , the relatives are not certfied , but
they are permitted to assume care for related children. In some States the inabilty of
relatives ' homes to be licensed could be based upon such factors as relatives ' refusal to
sign agreements concerning use of corpral punishment or to submit to criminal or
protective service record checks , or on the inabilty of homes to meet fire or water safety
stadards.

Waiver Standards

All the administrators stated that stadards related to the heath and safety of children
would never be waived ,  although what was interpreted as a threat to children s heath and
safety vared widely. For instace , space considerations and sleeping arangements were
frequently waived , as were well-water tests and fire inspections. The most frequently
waived licensing requirement , and usually the primar distinction between licensed and
approved status , was the agency practice of dropping requirements for relatives to attend
orientation and training sessions.

Reduced Monitoring and Support

Lack of approval stadards is troubling because monitoring relative foster homes may be
less rigorous due to their perceived stability. In only one State is the determination of
stabilty (which must precede relaxation of social worker visits) based upon specific
evaluation procedures. Evidence from studies in New York City and Baltimore is quite
clea that visits between agency staff and foster families is quite infrequent when the foster
parents are relatives and that provision of heath and social services to the foster family is
inadequate. 9



Few of the States provided training or policy guidance to staff on issues related to contact
between parents and children when the children were cared for by relatives , nor did any
State have policies or official procedures guiding staff on the use of court orders to protect
children if necessar. Because of the prior relationship between parents and relative
foster- cae providers , the access of parents to children is different from most situations in
which children are placed with strangers.   Intergenerational appeaance of certn family
issues is also a unique potential factor in such placements. Neither difference is reflected
in policy or staf training in most States.
                                                                     ,..                    ""
                                                                                            .,
                                                                           '"''"''''''''''..-,''' ",.."......    ",,-......
                                                                                                       ' . ",.............
                                                                                                                 ........",.
                                                                                                                      .... . .....,
                                                                                                                             -,.....
                                                                                                              ,-..............       ..

                                                                                                                                     ..

                                                                                                                                    ....
                                                                                                                                       -,-    .....................
                                                                                                                                                         ....
                                                                                                                                         ...."..'..".........
                                                                                                                                          .............-,..,-.....
                                                                                                                                           .................,--...
                                                                                                                              ..............
                                                                                                                                      ..    ......
                                                                                                                                             '"'''''
                                                                                                                                            ~~~~                   .......
                                                                                                                                                                      .....................
                                                                                                                                                          '''''''''''''
                                                                                                                                               ::::::::::::::::?(::~~~  ....




Effects of Lack of Stringency

No States had reliable data on the number of children re-abused while in foster care with
relatives. Two States reported recent cases which received publicity because children
were killed while in the care of relatives. But studies in New York , Marland and
Colorado indicate children placed with relatives are in placements that " are good for
them " or perceived to be so by staff. 10 Lack of rigorous pre- placement review coupled
with infrequent monitoring of children in placements potentially exposes children to
increased risk. There is no evidence , however , to allow for an evaluation of the safety
and well-being of children placed with relatives.

         Policies concerning the payment of foster-care maintenance vary widely between and
within States.

For unrelated foster parents , receipt of foster-care maintenance payments on behalf of
children in State custody is automatic. In order to be foster parents , these individuals
must first be licensed. Once licensed and carng for a child , foster parents receive
maintenance payments based on the child' s age , and may receive additional monthly sums
to meet the expenses of children with speial medical or emotional nees. Children
ineligible for Federal funds generally are supported through State or local budgets.

For individuals who provide foster care for related children , reimbursement for children
expenses is not so automatic. As a result of the                              Miler vs.Supreme Court decision in

Youalm relatives who are licensed and carng for children who meet Title IV­
eligibilty requirements cannot be denied Federally- funded , foster-care maintenance
payments. As noted above , however , less than half the States license all relative foster
caegivers      , apparently removing many relatives from the requirements of                                                                            Miler vs.
Youam.          Further Miler             vs. Youaldm           made no findings about the use of State funds.

In most States , the minimum regulatory criterion for provision of maintenance payments is
the licensing or certification status of the home. (See Table 3 below. ) If the relatives




                                                                                     .. n
                                                                     :::::tfiI   )rrfrrft. /f/tfrrrrffrfrffrrrr r?/                                                     ri:i:::::::::::::::::::::::::::::
are licensed or are officially approved as meeting licensing stadards , however , they do
not necessaly receive reimbursement for related foster children. Some States have
prohibitions on using State funds for board payments to relatives , so only relatives carng
for children who meet the Federal Title IV - E income requirements are eligible for Federal
foster-care monies.

If relatives do not choose to go through the licensing process or cannot meet licensing
stadards , they generally are not able to receive foster-care payments. Some of these
foster familes may be eligible for AFDC and receive support as Grantee Relatives
through this program. Others , frequently referred to as " free homes " receive no
reimbursement for the care they provide.

In severa States ,   relatives must request foster-care payments or be assessed as neeing
financial assistace before they can receive maintenance. Most administrators identified
the " desire of relatives to be reimbursed" as a secondar determinant of whether these
foster caregivers were reimbursed. Further , while State-level regulations may permit
payment of foster-care benefits for eligible children in licensed relative homes , county
child welfare administrators in some States have wide discretion in the reimbursement
practices in their counties. Provision of maintenance payments in some locally
administered programs is not automatic even if relatives meet all criteria.

Whether most States help relatives make an informed choice concerning licensing and
reimbursement options is questionable. Foster-care staff encourage relatives to apply for
AFDC rather than foster-care maintenance as a matter of unoffcial agency policy in some
States. The AFDC payments are generally considerably lower than foster-care payments.
(See Appendix A for a comparson of AFDC and foster-cae maintenance rates. ) It is not
clea in several other States whether relatives are fully apprised of their potential
eligibilty for higher foster-cae payments. Few relative foster-care providers paricipate
in orientation programs and even fewer are active in State Foster Care Associations.
Thus , they have few ways of leaing of the discrepancies between the support programs.

    There is evidence that children placed with relaves remain the legal responsibilit of
the State longer than children in other alternatve care arrangements.

According to several recent studies , children placed with relatives remain the legal
responsibility of the State longer than children in other alternative care arangements.
While these studies did not find any conclusive reasons for these longer stays , they do
point to several possible factors which contribute to this phenomenon.

Confusion over the goals for children placed with relatives results from definitional
confusion. This affects both agency and related foster-parent actions in the foster-care
relationship. Staf, unsure of where relatives fit in the system , do not clealy pursue
permanent placements. Becuse they frequently do not see themselves as par of the
foster-care system , relatives may pursue their own family goals regardless of agency
decisions. Since relatives rarely paricipate in orientation and training programs , they
                , "                                , "




have little chance to understad the roles the child welfare agencies expet them to play.
In addition ,
            the very stability of these placements often works against permanency
planning initiatives. One administrator explained These are usually the quiet
placements. It is hard to convince staff to do the boat-rocking necessar to return
children home , especially since the parents also are satisfied.

States frequently do not have viable paths out of foster care for children for whom
continued care by the relative is the best permanent plan but for whom adoption is not a
practical option. For many of these foster parents , adoption of children who already are
par of their extended families fles in the face of cultural norms. When agencies and
relatives agree that the best long-term plan for a child is continued care by the relative
social workers must continue to monitor the placement often on a monthly basis.
severa States permanent foster care " is not legally recognized as a final plan for a child.
Children who are understood to be in the care of a relative until adulthood in these States
must continue to appea in court on a regular basis    for " dispositional"   heangs since
technically, the child does not have a permanent plan.

In many relative foster-care situations , assumption of legal responsibility for a child by the
relative through legal argements such as guardianship is the most effective permanent
plan for children. Except in six States , however , transfer of custody from the State to
relatives results in cessation of all foster-care benefits. As discussed ealier , the wide
differences in most States between foster-care maintenance payments and AFDC
payments , for which the children mayor may not be eligible , creates a powerful economic
disincentive for relatives to tae such action. This is parcularly tre when children have
speial medical or psychiatrc   nees.
Six States provide financial assistace to relatives assuming legal custody for children in
foster cae. The rationale for these States ' guardianship subsidy programs is the    sae
that guiding the creation of the Adoption Subsidy Program , namely, that expenditures to
assist familes to assume legal responsibility for children in the care of the State wil be
amply offset by savings in foster-care maintenance and administration created by removal
of children from the foster-care rolls. Such subsidies appea paricularly valuable if foster
children are disabled. These subsidies can provide the support necessar for relatives to
assume legal responsibility for their kin and remove children from the foster-care system.
                         RECOMMENDA TIONS


The States, universities, and family and child welfare organizations should:

   Conduct further research concerning the use of        relave caregivers   within the child
welfare system.



The problem of defining the role of relative foster caregivers must be resolved if child
welfare programs are to effectively tie into extended family care networks. Before either
the States or the Deparment can attempt such a definition , more must be known about the
parcipation of relatives in the child welfare system in genera , and relative foster-care
placements in parcular.



Initially we would recommend studies to examine the following questions:

               What are the short- and long- term effects of relative placements on
               children? This should include gross      measures of well- being such as absence
               of re-abuse or ilness ,   as well as the effect on the outcomes of foster care
               for children.


               What are the advantages and disadvantages for the States , for relative
               caregivers , and for the children regarding the various roles relatives could
               have? Where State laws and policies help define and determine relatives
               roles , the impact of varous policies should be studied.


The Adminiration for Children and Familes (ACF) should:

    Encourage States to extend existing foster home standards to relave foster homes or
to develop reasonable and consistent standards for using and evaluatng relave foster-
care homes that are not licensed or approved.

It makes little sense for State agencies to remove children from the homes of their parents
because the home situations are not assessed as safe only to place them in situations that
have not been thoroughly investigated and found to be safe.      States may adopt special
stadards for relatives ' homes that recognize the unique contribution of continued
extended family ties , but children placed with relatives are the legal responsibility of the
State agencies , and like all other children in foster care , clealy should be offered a basic
level of protection. The current lack of stadards for approving and monitoring relative
foster homes creates great potential for harm to children.

While ACF may not have clea regulatory        authority to require States to insure the safety
and suitabilty of unlicensed (and therefore not Federally funded)     relative homes , we
strongly urge that ACF tae   an   active role in encouraging States to protect these children
adequately.

   Encourage States to develop consistent, straightforward policies for infonning
licensed or approved relaves of their eligibility for financial reimbursement.

ACF should encourage States to develop clea criteria for providing foster- care
maintenance payments to relatives who provide foster care. All pars of State agencies
must then be held accountable for insuring that all foster parents are aware of the benefits
due them , and are offered such benefits as a matter of routine placement procedures.

   Assist States to accomplish the two prior recommendatons through research
consultatn and technical assistance.


States must begin to establish clea and consistent policies and stadards for using and
supporting relative foster-care placements. ACF should paricipate actively in this
development effort by collecting, maintaning, and disseminating materials to assist States
in their efforts.



ACF must first develop its own explicit policy concerning relative placements through the
reseach agenda proposed above and through its continued parcipation in national
deliberations on the topic. ACF should continue to encourage national organizations to
address this topic. Based upon the reseach and national discussions , ACF can be in a
position to encourage States in the development of quality assurance stadards for these
foster homes and of consistent requirements for relative foster- home support.

One speific area in which there seems to be a role for ACF is in the development       of
training packages that address the nees of relative foster parents. Relative foster-care
parents are invited to attend foster- parent orientation and training in most States. As State
administrators reported ,most relatives regard these sessions as irrelevant to the role they
have been asked to perform. It is clea from States ' current experiences that revised
programs , speifically for relative caregivers , are neeed if agencies are to secure their
parcipation. ACF should assist States and national organizations in this currculum
development effort.

   Study the potentil costs and benefis of providing subsiies to relaves who assume
guardianship for special-needs children in their care.


Guardianship subsidies appea to   benefit those extended families wiling to assume
permanent responsibilty for children , but who require financial support because of the
speial medical nees of these children. The same cost-benefit arguments applying to
adoption subsidies such as those offered through the Adoption Assistace and Child
Welfare Act of 1980 might    also apply here. Namely, the increased    costs of subsidies are
amply offset by the long-term savings in foster-care costs.
             , "




                   DEPARTMENTAL COMMENTS


We received comments from the Administration for Children and Familes (ACF), the
Assistat Secreta for Planning and Evaluation (ASPE), and the Assistat Secreta for
Management and Budget (ASMB). Respondents were generally supportive of our
findings , but the ACF and the ASMB expressed doubts about the ACF' s authority to
intervene in the States ' application of stadards or provision of foster care maintenance
payments when foster care placements are not supported through Federal funds. We have
amended the recommendations to meet these concerns by calling on ACF to " encourage
rather than " require " appropriate State actions. We have made other changes in the
recommendations to make the intent of the recommendations cleaer. Please refer to
Appendix C OIG Response to Deparmenta Comments " and to Appendix D for the full
text of all deparmenta comments.

We are appreciative of comments received from staff of the Child Welfare Legue of
America and the American Public Welfare Association.
                                  , "




                             ENDNOTES

   s. Bureau of the Census    Census Projections Report: Living Arrangements of
Adults and Children ,   Washington , DC: U. S. Deparment of Commerce ,     p. 1
1985.

The data are based on samples from the 1980 u. s. Census projected to 1985. The
1990 U. S. Census data concerning the Living Arrangements of Children wil not
be available until 1992. Data from the 1980 projections should be used cautiously
when considering children in foster care with relatives since there is some
evidence , as presented in this report, of changing trends in this area of practice
over the last decade.

Lewis , Robert , and Mark Fraser Blending Formal and Informal Networks in
Foster Care Children and Youth Services Review , vol. 9 , pp. 153- 169 , 1987.

A recent study of seven urban sites found that from 20 to 40% of all HIV- infected
children are placed with extended family members. (Lela Baughman , Cynthia
Holmes- Morgan , Stephen Margolis , and Marn Kotler Infants and Children with
HIV Infection in Foster Care , Washington , DC: Assistat Secreta for Planning
and Evaluation , U. S. Deparment of Heath and Human Services , September
1989.

An OEI inspection of programs serving crack babies found similar trends in urban
                                children (Office of Evaluation and Inspections
areas for ths population of foster
Office of Inspetor General Crack Babies , Washington , DC: U. S. Deparment of
Heath and Human Services , April 1990.
National Commission on Family Foster Care A Blueprint for Fostering Infants.
Children. and Youth in the 1990' , Washington , DC: Child Welfare Legue
America , unpublished draft , March , 1991 , pp. 75- 82.

Although neither Adoption Assistace and    Child Welfare Act of 1980 nor
Deparmenta regulations state a preference for relative placements , State agency
                                                          State policies frequently
personnel often stated they believed a preference to exist.
describe a preference for relative placements. Administrators usually connected
such policies to requirements in Federal regulations.

ACYF Information Memorandum , ACYF-IM- 91- 11; Policy Information Question
PIQ- 82- 12; and PIQ- 85- 06.

Walker , Clarce , Patricia Zangrillo and Jacqueline Smith Parenta Drug Abuse and
African American Children in Foster Care , Washington , DC: National Black Child
Development Institute , pp. 27-   , Februar 1991.
                               , "
                                 , "                            , "




       Child Welfare Legue of America Standards for Foster Family Service (revised),
       Washington , DC: Child Welfare Legue of America , 1975.

       New York Task Force on Permanency Planning for Children Kinship Foster Care:
       The Double-Edged Dilemma (unpublished report), Rochester , New York , pp. 10
             , October 1990.

       Dubowitz , Howard , M. D. The Physical and Mental Health and Educational Status
       of Children Placed with Relatives (unpublished report), Baltimore , Marland:
       School of Medicine , University of Marland at Baltimore , pp. 106- 109 , August 24
       1990.

10.	   New York Task Force on Permanency Planning for Children op. cit. , p. 9.

       Schatz , Mona	 Relative Foster Care: What Do We Know?"
     Fostering Families
       (unpublished report), University of Colorado School of Social Work , Boulder
       Colorado , p. 2 , December 1990.

11.	   Litigation in Federal District Courts in Oregon                (Lipscomb v. Simmons)    and
       California         (City of San Francisco v. McMahon)           seeks to place such requirements
       on the States.

12.	   See ,        e.   , Benedict ,     Mar and Roger White
                                                      Factors Associated with Foster Care
       Length of Stay, Child Welfare , vol. 70 , p. 55 , Januar- Februar 1991; and
       Goerge , Robert The Reunification Process in Substitute Care Social Service
       Review , vol. 37 , p. 436 , September 1990.
             APPENDIX A

AFDC AND FOSTER- CARE MAINTENANCE RATES

APPENDIX A: AFDC AND FOSTER CARE MAINTENANCE RATES


  States    AFDC      Foster Care Maintenance (FCM)2          Average   $ Diff.     % Diff.
           Payment                                            FCM                   (($Diff
                                For Children Aged:            Payment   (FCM ­
                                                                        AFDCJ       AFDC)
                                                                                    x 100)

             For 1                                             All
             Child     years        years            years     Ages

           $ 59.      $181.00        $202.       $213.        $198.      $139.      236. 72%
             273.      519.           574.           635.      576.       302.       110.
              81.00    195.           210.           240.      215.       134.       165.43
             161.11   240.            240.           299.      259.        98.        61.17
             317.     294.            340.           412.      348.        31.15
             125.     284.            284.           338.      302.       176.41     140.47
             333.     319.            355.           407.      360.        26.
             169.     284.            286.           369.      313.       144.        85.
            240.      307.            307.           321.00    311.67      71.54      29.
             153.     286.            286.           360.      310.       156.       10 1. 97

             145.42   300.            300.           300.      300.       154.       106.
            315.      504.            504.           504.      504.       188.        59.
             136.     208.            230.           308.      248.       112.        82.
              98.     257.            286.           311.00    284.       186.       189.
             139.     268.            312.           369.      316.       176.       126.
             166.      177.           222.           279.      226.        59.        35.
             166.     205.            277.           351.00    277.       111. 00     66.
             147.     250.            266.           304.      273.       125.        85.46
             67.      234.           267.            300.      267.       199.      298.
            159.43    269.           276.            321.00    288.       129.        81. 06

            165.      460.           460.            477.      465.       300.       181.30
            385.      410.           410.            436.      418.        33.

             184.     347.            347.           433.      375.       190.      103.

            276.      308.            308.           399.      338.        62.        22.
            218.       145.           165.           175.      161.67      57.        26.
                                                                , "




                     131. 70     182.         222.          244.                   216.          84.        64.
                      74.        288.         288.          361.00                 312.        238.       322.
                    220.         222.         222.         222.                    222.           1.66
                    207.         281.00       281.00       337.                    299.         92.        44.46
                    309.         200.         251. 00      354.                    268.         -41.47     13.
                     168.        213.         226.         266.                    235.         66.        39.
                     143.41      258.         270.         281.00                  269.        126.        88.
                    287.42       339.         407.         471.00                  405.        118.        41.14
                    304.56       215.         215.         215.                    215.         89.        29.41
                     100.        250.         300.         400.                    316.        216.       216.
                     181. 06     237.         246.         290.                    257.         76.        42.
                    110.         300.         360.         420.                    360.        249.       224.
                    169.         212.         248.         335.                    265.         95.        56.
                    195.         291.00       323.         354.                    322.        126.        64.
                    294.         232.         232.         284.                    249.        -4.         15.
                    231. 83      182.         209.         275.                   222.                     -4.
                    172          220.         270.         325.                   271.67        99.        57.
                    177.         213.         213.         250.                   225.          47.        26.
                     63.         390.         390.         390.                   390.         327.       519.
                    223.         240.         240.         240.                   240.          16.

                    267.         353.         353.         426.                   377.         109.        40.
                    160.         228.         267.         337.                   277.         116.48      72.42
                    306.         215.         265.         313.                   264.         -42.        13.
                    135.         161.00       202.         242.                   201.67        65.        48.
                    245.         163.         224.         284.                   223.          21.
                    188.         300.         300.         330.                   310.         121.67      64.

AVERAGE            $191.34     $267.         $288.         $335.43                $297.       $105.       55. 35%




 Family Support Admistration Characteristics and Financial Circumstances of AFDC Recipients.
 FY 1989 , Washigton , DC: U. S. Department of Health and Human Services, p. 70 , 1990.

 Miler, Jennfer ,      Anelise Goldstein, and Theresa Finchio         Foster Care Rates, "   Washington
 Memo ,   vol. 3   , p. 8 , November 1991.


                                                     A-2
APPENDIX B

BIBLIOGRAPHY
                      ,, "," "
                             , "               ,,,"""




             APPENDIX                                   B -
   BIBLIOGRAPHY

Baughman , Lela , Cynthia Holmes-Morgan , Stephen Margolis , and Marin Kotler Infants
and Children with HIV Infection in Foster Care Washington , DC: Assistat Secreta for
Planning and Evaluation , U. S. Deparment of Heath and Human Services , September
1989.

Benedict, Mar and Roger White Factors Associated with Foster Care Length of Stay,
Child Welfare 
 70:45- , Januar-Februar 1991.

Child Welfare Legue of America Standards for Foster Family Care Washington , DC:
Child Welfare Legue of America , 1975.

Dubowitz , Howard , M.    The Physical and Mental Health and Educational Status of
                              (unpublished), Baltimore , Marland: School of Medicine
Children Placed with Relatives 


University of Marland at Baltimore , August 1990.

Goerge , Robert The Reunification Process in Substitute Care                     Social Service Review
37:422- , September 1990.

Katz , Linda , and Chris Robinson Foster Care Drift: A Risk- Assessment                         Matrix       Child
Welfare  70:347- , May-June 1991.

Lewis , Robert  The Use of Speific Foster Homes in the Substitute Care Program
(unpublished report), submitted to the Uta Deparment of Social Services , Januar 1986.

Lewis , Robert , and Mark Fraser Blending Formal and Informal Networks in Foster
Care Children and Youth Services Review  9: 153- , 1987.

Longino , Miriam                   Kinship Care: Keeping It in the Family,   The Connection 
       6: 1 ,
Spring 1991.



National Commission on Family Foster Care A Blueprint for Fostering                         Infants ,   Children
and Youth in the 1990' (unpublished), Washington , DC , March 1991.

Office of Evaluation and Inspections/Office of Inspector General Crack Babies
Washington , DC: Deparment of Heath and Human Services , April 1990.

Schatz , Mona Relative Foster Care: What Do We Know?"
       Fostering Familes
(unpublished report), University of Colorado School of Social Work , Boulder , Colorado
December 1990.
Task Force on Permanency Planning,                   Kinship Care: The Double- Edged   Dilemma
(unpublished), Rochester , New York , October 1990.

Thorton , J. L. An Investigation into the Nature of Kinship Foster Home
               (doctoral
disserttion), Yeshiva University, New York , 1987.

Walker , Clarce , Patrcia Zangrillo and Jacqueline Smith Parental Drug Abuse and
Afrcan American    Children in Foster Care Washington , DC: National Black Child
Development Institute , Februar 1991.

Whittaer  , James     Formal and Informal Helping in Child Welfare Services:
Implications for Management and Practice Child Welfare  65: 17- , Januar- Februar
1986.
           APPENDIX C

OIG RESPONSE TO DEPARTMENT COMMENTS
    APPENDIX C - OIG RESPONSE TO DEPARTMENT COMMENTS


We received comments from the Assistat Secreta for Planning and Evaluation , the
Assistat Secreta for Management and Budget , and the Assistat Secreta for Children
and Families. Please see APPENDIX D for full texts.


Assisnt Secretary for Planning and Evaluation
The ASPE concurred with the findings and recommendations of the report. They urged
more speificity in some of the reseach recommendations.

We have aded some     aditional detail to the "Issues      for   Further Research. "


Assistant Secretary for Management and Budget

The ASMB concurred with the findings of the report and strongly supported the report'
recommendations concerning ACF' s role in providing technical assistace to the States in
their policy development efforts.

The ASMB voiced strong concerns , however , about the recommendation that ACF require
States to develop reasonable and consistent policies concerning the use , evaluation , and
support of relative foster care homes. The ASMB does " not believe the Deparment is , or
should be , in a position to require States to develop policies regarding relative
placements. .. . "

We have made several changes in our initial recommendation to adress the concern
expressed by the ASMB and ACF. First, we recognize that ACF may not have the
authority to require application of standards to children whose care is not reimbursed
through use of Federal fund, so we have   recommended that ACF    encourage the
application of standards.

Second, our intention in the recommendation was not to encourage separate treatment of
relative foster-care homes, and we have rewritten the recommendation to make our
position clearer. We have not defined specifc standards for approving relatives, or even
called for separate standards for these homes. These decisions should come from the
research efforts suggested, the standard review work of national organizations , and the
deliberations of State administrators. Our inclusion in the recommendation of a statement
that States might develop new standards for these foster care situations was meant to
recognize that States may need some flexibilty in this area, not to imply a requirement for


                                           C - 1

separate status for these children.   Certainly our      recommendations make no suggestion for
ACF to mandate or even promulgate any specifc Federal standards in this area.

The recommendations do not, as implied in the ASMB' scomments , create a new class of
potential IV-E recipients. Legislation, as interpreted by the Supreme Court in Miler
Youaldm, requires States to make available federally-reimbursed foster-care maintenance
payments to relative foster-care providers if they are licensed and the child meets the
eligibilty requirements   for foster care   payments under Title IV-E   of the Social Security
Act. While   State policies adhere to this requirement , several States allow or encourage
 the use of aditional limitations in practice (i. e. , encouraging staff to conduct needs
 assessments or to await a request from relative foster-care providers before initiating
foster care payments). Our concern is that those relatives who are eligible for financial
 assistance should be made aware of the availabilty and requirements of such support.
have claried this point in the recommendations.


The ASMB urged that once basic reseach efforts have been completed , the Deparment
should establish a public position on relative foster care as a precursor to its efforts to
assist the States in their policy development efforts.

We agree. We believe that ACF should lead the Departent in developing an internal
policy on this issue. We have aded language to the recommendation to support this
effort.


Assisnt Secretary for Children and Familes
ACF expressed several concerns about the recommendations of the report.

They did not concur with the first recommendation that ACF should require States to
develop reasonable and consistent stadards for evaluating and reimbursing relative foster
cae homes. Specifically, the ACF

     expressed confusion over the recommendation s call for stadards;

Our recommendation speak only to the issue of health and safety standards, not to
permanency planning review requirements.

   shared the ASMB' s concern that the report called for a mandate from ACF for States
to develop separate stadards for relative foster care homes or to incorporate any
Federally- defined stadards;

We reiterate our response to the ASMB (as above). A requirement for ACF to mandate
separate standards or to define specifc standards was not our intention. As A CF points
out, Section     (a) (10-11) requires that ACF review State standards for evaluating the
               471




                                                C - 2

safety of foster home placements eligible for Federal Financial Participation. Despite
current discussions, children in the legal custody of State child welfare agencies who are
placed with relatives are "in foster care,    and States should be accountable for their care
and protection. Therefore ,     States should be encouraged to accord them the protections
available to all children in foster care.

    maintaned that they have no legislative authority to require States to develop stadards
for non-IV-E children in the care of relatives;

We have changed the language of the recommendation, and callfor ACF to encourage
extension of existing standards or development of reasonable and consistent standards
                                                                                         for
relative foster homes in order to protect the health and safety of children in the custody of
State child welfare agencies.


   asked for clarfication concerning the recommendation for exploration of a program
guardianship subsidies for special nees children.

We have rewritten the recommendation.

Finally, the ACF agree with the recommendation that ACF assist States in their policy
development efforts.




                                              C - 3

          APPENDIX D

FULL TEXTS OF DEPARTMENT COMMENTS

;. ,, /'/

..   .._,                                                    &. '                                    .... .

                   D::P.o\RT!'            -r OF       HETH HUMA StRV1CES
, .J 




                                                                                         ..$T T1                CKN AND FAMIUES
                     2 8 \992
                                                                                         Of oi th      AulSnt   .tary. Sune
                                                                                         370 Lenient Promnaoe. S,
                                                                                          Washingon, D. C.
             TO:	                     Richard P. Kusserow
                                      Inspector General

             FROP. :                   Jo Anne B. Barnhart

                                       Assistant Secretary
                                            for Children and F ies
             SUB:TECT :                Comments on the Off              ceative
                                                                           f Inspector               General      af"t
                                       Report: "Issues                 in       Foster               Care,
                                       OE!-06-90-02390

             Included below 
re the Administration for Children and Families 

             (ACT) comments on the Office of the Inspector General (DIG) draft

             inspection report entitled: "Issues in Relative Foster Care.

             OIG RECOMMENDATION


             The Administration for Children and Families should require

             States, as a condition of participation in the Federal foster

             care program ,                      to:
                         Develop and enforce reasonable and consistent standards for
                         using and evaluating relative foster care homes.
                         Develop consistent, straightforward policies for providing
                         financial reimbursement for relatives.
              COMMENTS

             The first part of this recommendation can be understood in two

             ways:  as applying to the' health and safety requirements for
             licensing/approving a foster home ; and as pertaining to the
             various foster care protections required under section 427 of the
             social Security Act.
                          Regarding health an $afety requirements for
                           icensin9/ pprovi 9 relative homes as foster family homes:
                                                  71 (a) (10-11) provides Ior the establishment and
                                                   eview of standards related to "I adJission
                          section

                          :periodic

                          policies, ,safety,                    sanitation :and protection of civil
                          :rights... . 41 Such                  standards -are to be  reasonably in accord"
                                                                                                                izations
                                ith the standards 
                 stab	   ished by 	     ational


                                oncerned with such                  standards..
Page 2 - Richard P. Xusserow

    At this time national organizations have no established
    st.andards speci ic to relative homes, al'thC'ugh 1tany States
    use their regular foster home licensing requirements while
    also granting some waivers for relative placements. Some
    Stat.es have established working criteria for the approval
    rather than the licensure of such hDmes as foster care
    homes. The main difference seems to be that standards for
    rel? ive homes are generally 
      ore flexible provided that the
                                       is not jeopardized.
    health and safet.y of the child                            Because
                                                            I homes 

    no na ional standards have been set for relatives 

    nei ther ,the State nor the Federal government in the course

    0: approving State plans has any criteria against which to
    judge proposed State standards. It is not legislatively
    permissible for the Federal government to est.ablish
    standards since section 
      71(a) (10) specifically indicates to

    whi h standards the Stat.es must conform.
     In addition, such a requirement would only be applicable to
     ti tle IV-Echildren and not to the other 55 per cent of the
     children in relative foster care not covered by title IV-E.
     To cover non-title IV-E children, a legislative amendment to
     ti tle!V-B, would be needed.

     The ACr, does agree, however, that states should adopt

       andards for using relative homes that recognize the unique

     benefits of continued, extended family ties while continuing

     to protect the health and safety of children in these homes.

     Regarding standards for the application of foster care

     safeguards and protections for children placed in the homes

     of relatives:


     We believe this aspect of foster care to be at least as
     important as the coridi tions or standards that are required
     of the homes of relatives who provide care. The protections
     required in section 427 are the primary tools we have to
     hold States accountable for providing ongoing services that
     all children in foster care    need.       The Department has always
     taken a firm and unambiguous position that any child who is
     under the care and responsibility of the State agency and
     who is in substitute care must have the safeguards and
     protections specified under section 427 of the Social
     Security Act. 
         his includes children placed with relatives,

     regardless of whether the home is licensed/approved and

     whether a payment is being made or what the source of the

        ayment is. This is a condition of funding under

     title IV-B. Accordingly, we feel that in this regard the

     OIG recommendation is 
        lready being met.

          3 - 1tichard                 'P. Xusserow
          Regarding the development of consistent, strai9htforward

          policies for providing financial reimbursement fo=

          relatives :
          In Youa):i1t vs. Miller                        , the
                                       Supreme Court ruled that

          relatives who are serving as foster parents,
          licensed/approved by the State for Federal reimbursement
          under the State foster care progra      ust be paid acco=ding
          to the same rate s   ructure as o her foste= faThily homes.

           In many ' States, caretaker relatives receive AFDC payments

           for children, usually considerably less than foster care

           payments. In some  instances, rei bursement is provided; in
           others, no reimbursement is                           given.
                                               In both these instances,
           the homes normally are not licensed or approved by the S'tat.e
           agency as
 eeting the established foster care home
           standards.
           We agree that States should have clear, consistent policies

           for providing foster care maintenance payments to relatives

           who provide foster care and that all such foster parents

           should be informed of the benefits they qualify fo=, and

           offe=ed such benefits as a part of routine placement

           procedures. To make such a requirement a condition fo=

           funding under title IV-E, however, would be impractical

           since the Supreme tourt decision already requires it fo=

           title IV-E eligible                           children.
                                          For those children who are in
           unlicensed or unapproved relative homes, no title IV-E claim
           is made and therefore, the requirement based on " a condition
           of funding" would have no effect.
           To make it a xeguirement under title IV-B 

                                                                          ight be more

           effective and would cover all the children                     involved,
           however, it would be" very difficult to enforce and would
           have to be legislatively mandated.
Thus, regarding the recommendation for licensure/approval

standards as a condition of funding for the states , we do not

concur with the recommendation.


   hrough program instructions and guidance issued to state

agencies and by 
                  orking with them in the required joint

development                       itle IV-B State plans, the ACF will support and

   ncourage states 
                o adopt appropriate procedures and practices.

We can               lso ncourage             ational organizations to address the issue

of relative foster care and take the lead in developing standards

which the states                    ay then 
     se or adapt as appropriate.

Page -4            -    Richard       Xusserow
o: G RECOMMATION
Assist States 
                   o accomplish the above through research,
consul tation and technical assistance.
CO!'!ME

We concur with the recommenda ion that policies , standarcs,

  ientation and training materials for relative fos er homes
should be supported through study, consultation an - technical
assis ance. . The ACF has begun consideration o issues related to
rclati ve foster care.                   The OIG findings and observations                  ill
provide a very useful base for developing ACF                                initiatives.
O!G RECOY.ENDATION


Study the potential costs and benefits of extending subsidies,
such as those offered through the Adoption Assistance and Child

Welfare Act of 1980, to relatives who assume guardianship for

special- needs children in their care.
CO!- ':ENT

We cannot concur with the recommendation for a studY of the
benef its of subsidies for relative foster care placements because
we do not understand the recommendation. Use of the term
 special needs children" suggests that eligibility be limited to
children who meet the cri                    ter ia of the
                                        adoption assistance
prograro. However, the brief explanation of the recommendation
refers to families who require a higher level of support than
that available under AFDC. We suggest that you clarify the OIG
intent. At that point, we will be pleased to consider the
recommendation once again.. and provide further comments.
ISSUES            FOR        FURTHER RESEARCH

The ACF is interested in gaining additional information about

relative foster care placements and has already included a study

of outcomes for relative foster care in our fiscal year 1992

Evaluation Plan.
Thank you for the opportunity to comment on this draft report.

.-




               DEPARTMENT OF HEALTH 11 HUM .u             "     JCES                        Otflce of   th See
     .Jit-
                                                                                            WashIngton. D. C. 2020'





         TO:             Richard P. Kusserow
                         Inpecor General
         FROM:           Assistat Secreta for
                         Planng and Evaluation
         SUBJECT:        Comments on OIG Draft Report: " lssu       in Relative Foster Care " OEJ..­


         Per your request I have reviewed your draft inpecion report entitled " Issues in Relative Foster
         Care. " In general I found it a very helpful repon detailing imponat policy and programatic issues
         in an area of growing co cem. I do have several relatively minor comments as outlined below.

         On page 7 the repon cites a study conducted by the National Association of Black Social Workers.
         First, the report being referred to was conducted by the National Black Child Development Intitute
         (NBCDI), under contract to ASPE and not by the National Association of Black Social Workers.
         addition , the paragraph strongly implies that this was a study of medicaly fragile children. This is
         nOt the cae. Data about child heath was not discussed in the NBCDI report, and , in fact , only a
         very few of the children in either the parenta drug abuse or non-dg abuse groups had substatial
         heath problems. The study therefore does not suppon the hypothesis for which your report uses it
         namely that relatives are being used more often to care for medicaly fragile children.

         The fourt paragraph on page 9    could use clarification. First, it might be more clea to emphasize
         the tension betWeen potential benefits of increaed reliance on extended family netWorks and
         resources, on the one hand , and potential dangers of increaed parenta access to children and
         intergenerational family dysfunction on the other. In addition ,I would suggest either specifying some
         examples of the " cert  family issues " about which there should be concern or else broadening it to a
         more general statement of intergenerational family dysfunCtion.

         Regarding the first of the issues suggested ior furter reseach on page 14 , I note that a study to
         determne the effects of relativ placements on children wil be quite diffcult to design and conduct.
         Because ACYF has such a study planed , additional detail in this recmmendation would be useful

         Finaly, a very recent anicle in Child Welfare may be of panicular interest to the authors of your
         repon and probably did not appea until after information colleCtion for your evaluation was
         complete. Entitled " Permanency Planing for Children in Kinship Foster Homes " I attch it for you
         information.




                                                     Manin H. Ge


         Attchment
      DEPARTM iNT Of HEALTH .. HUMAN SERVICES	                  Of of th
(1-                                        NOV 2 2 191





  KEORAtJ 	 RICH P.                     mSSEROW
                    Ins   ctor Genera
  FROH:	            Kevl.n E.   Moley

                                  Secretary r Management Budget
                                                          111

                    Assistan
  SUBECT:	          ASMB Comments on the OIG Draft Report: "Issues in
                    Relative Foster Care"

  Thank you for sharing the draft report and affording us the
  opportuni ty to provide comments. OVerall, the report is an
  excellent sumary and discussion of the important policy issues
  in the emerging area of relative foster care, and it will be a
  useful resource document within and outside the Departent.
  We are concerned, however, about the tone of the report I s
  two recommendations for ACF to " require States, as a condition
                                                                      first
                                                                              of
  participation in the Federal foster care program to:

        Develop and enforce reasonable and consistent standards for
        using and evaluating relative foster care homes.

        Develop consistent, straightforward policies for providing

        financial reimbursement for relatives.


  We agree that the varying. and inconsistent practices highlighted
  by the report indicate that States need to examine closely their
  policies in this     area.         However, we do not believe the Department
  is,    should be, in a position to            reauire States to develop
  policies regarding relative placements as a condition of
  participation in the federal foster care program. Our reasons
  are three:
       Al though we would certainly defer to the opinion of the
       General Counsel, it appears that the legal authority for ACF
       to reauire states. as a condition of DarticiDation in the
       federal foster care DrOqram , to develop and enforce policies
       in the areas of standards and payments for relative foster
       homes is questionable. The statute requires certain
       policies and procedures be in place for
       substi tute
                                                           Al
                                                    children in
                     care in the custody of the State agency. There
       is no explicit authority for the Departent to require a
       separate set of policies for children in relative care, and
       trying to require this may place us 	 in a dubious position
        legally.	
     The Departent already has a clear policy on eligibility for

     Federal Financial Participation and minimum protections for
     all children in foster care, wbich includes children in
     relative placements.    Beyond these provisions, setting
     standards for and requlating foster care has always been
     left to the States.   The Administration has been very clear
     in its opposition to requiring standards, or even in

     allowing states to impose standards, in the child care

     arena--one group of child care providers we did not want to
     eliminate were relatives who may not meet state health and
     safety requirements. Likewise, we would probably not
     support, and certainly do not want to require , state efforts
     that may have the effect of eliminating some relatives as
     substi tute care providers.
     Finally, requiring certain policies for relative care,
     especially in the area of payments, may result in even more
     "formalization" of placements and in increased claims for
     reimbursement under the Title IV-E program.
We would be more comfortable with the report I s recommendations if
they encouraaed states to develop policies in these areas, as
opposed to " required.

The report I s third recommendation--that ACF should assist states
in developing clear policies on relative care through research,
consultation and technical assistance--is one that we strongly
support.   However, given the Departent has not yet developed
clear policies concerning the many and complex issues raised in
your report, we believe there needs to be an interim
Departent,                                            step.  The
             through the leadership of ACF, should first establish
posi tions on such issues as:
     What constitutes relative care?

     Should the Departent encourage the use of relatives as
     foster care providers; should they be licensed the same as
     other foster family homes?

     Should the Departent dissuade states from retaining legal
     custody, encouraging instead that relatives take leqal
     responsibility for these children?

    What are the appropriate mechanisms and levels of payment

    for relative caregivers?

We believe that a recommendation for ACF to develop policies in

these areas would then allow for the federal leadership called

for in your third recommendation.

